AU99-021 September 1999
Home | Other Reports
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistical Reports
Grantee: Legal Services of Eastern Missouri, Inc.
Recipient No. 526020
Final Report No. AU99-021
September 1999
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE AND METHODOLOGY
RESULTS OF AUDIT
Case Service Reporting
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Examination of Reported Cases
CLOSED CASES
Clients Not Identified
Duplicate Cases
Legal Services Not Provided
Untimely Closure of Cases
OPEN CASES
Untimely Closure of Cases
Duplicate Cases
ADDITIONAL CASE MANAGEMENT ISSUES
Eligibility Determinations
CONCLUSIONS
RECOMMENDATIONS
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
APPENDIX I - LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
APPENDIX II - LEGAL SERVICES OF EASTERN MISSOURI, INC. COMMENTS ON DRAFT REPORT
EXECUTIVE SUMMARY
The 1998 Grant Activity Report submitted by Legal Services of Eastern
Missouri, Inc. (grantee) overstated the number of cases closed during the year by
5,478 cases or 37 percent.  The grantee reported 14,930 closed cases but only an
estimated 9,452 cases qualified to be reported as closed during 1998.  The grantee
also overstated cases open at year-end in its 1998 report.  The grantee had an
estimated 2,111 cases open  at year-end, but reported 2,505 cases.
The audit revealed four causes of the overstatement of closed cases. The
grantee improperly reported 2,222 cases for unidentified clients.  For these cases,
the clients name was not obtained and recorded in the case management system
or case files.  The grantee had no controls to ensure that the 2,222 cases did not
include multiple calls from the same individual requesting services on the same
matter.  An additional 1,455 cases were duplicates, i.e., these cases were reported
more than once, to the Legal Services Corporation (LSC).  Also, legal services were
not provided in an estimated 1,013 cases and an estimated 788 cases were
reported as closed in 1998 even though legal activity had ceased prior to 1998.
Open cases at year-end were overstated for two reasons.  An estimated 209
cases reported as open at December 31, 1998 should have been closed because
legal activity had ceased.  An additional 185 open cases were duplicates.
Two other issues, not directly related to case counting, were disclosed
during our review.  In a sample of 170 cases, 73 case files lacked documentation
of citizenship eligibility and 22 case files did not include income eligibility
documentation.
Recommendations to correct the above problems are on page 8.
BACKGROUND
Legal Services of Eastern Missouri, Inc. is a nonprofit entity organized to
provide legal services to indigent individuals who meet established eligibility
guidelines.  Its priorities include housing, income maintenance, family, and
consumer issues.  The grantee is headquartered in Saint Louis and has a branch
office in Hannibal, Missouri.  It is staffed with 22  attorneys, 15 paralegals, and 27
other staff who assisted with cases and provided computer, accounting, and
administrative support services.  Law students from two local schools work for the
grantee on an intermittent basis throughout the year.  The grantee received funding
totaling about $4.15 million in 1998, of which about 40 percent or $1.68  million
came from LSC.  Legal Services of Eastern Missouri, Inc. relies on volunteer
lawyers to satisfy its Private Attorney Involvement requirement.
The grantee prepares and submits an annual Grant Activity Report to LSC on
key aspects of its workload.  The report includes statistics for basic field services
and Private Attorney Involvement programs financed with LSC funds, including the
number of open and closed cases, types of cases, and the reasons for closing
cases.  For calendar year 1998, Legal Services of Eastern Missouri, Inc. reported
14,930 closed cases and 2,505 open cases to LSC.  The grantee kept track of
client cases with Turbo-Cases, an automated management information system.
Grantee management stated that Turbo-Cases was not fulfilling their needs.  The
Kemps Case Management System had been obtained and was being implemented
at the time of our visit.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee
provided LSC with accurate case statistical data in its 1998 Grant Activity Report.
The Office of Inspector General performed this review from June 7-17,
1999, at the grantees main office.  The OIG examined the grant proposal
submitted to LSC by Legal Services of Eastern Missouri, Inc., for 1998 and the
grantees 1998 Grant Activity Report.  During the on-site visit, the OIG interviewed
and collected information from the grantees executive director, managing
attorneys, staff attorneys, paralegals, intake staff, information system specialist,
and other support staff.
The OIG also obtained and reviewed the data in the grantees automated
case management system to determine if the case statistical data reported to LSC
in the Grant Activity Report was consistent with information in client case files and
in compliance with applicable LSC reporting requirements.
The OIG generated a random sample of 170 closed and open client cases for
detailed review.  The sample cases were selected from the grantees case
management system.  Actual overstatements of cases identified by the OIG were
eliminated from the universe before making our projections to preclude double
counting of errors.  The sample provides 90 percent confidence that the error rate
for closed cases was between 11 and 22 percent.  The most probable error rate for
closed cases was 16 percent.  The sample provides 90 percent confidence that the
error rate for open cases was between 10 and 21 percent.  The most probable
error rate for open cases was 15 percent.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public Law
105-277, incorporating by reference Public Law 104-134, §509(g).
RESULTS OF AUDIT
Case Service Reporting
The grantees 1998 Grant Activity Report overstated the number of cases
closed during the year and the number remaining open at year-end.  Closed cases
were overstated because the grantee incorrectly reported cases for which the
clients identity had not been determined.  Other cases were closed and reported
more than once which resulted in duplicate reporting.  The grantee did not provide
legal services for some of the cases reported to LSC.  Additional overstatements
occurred because some cases were reported as closed in 1998 although legal
activity had ceased in prior years.  Open cases were overstated because some
cases reported as open at the end of 1998 should have been closed in prior years
and some cases were reported more than once.
Case Service Reporting Requirements
LSC requires recipients to submit an annual Grant Activity Report
summarizing the previous years legal services activity wholly or partially supported
with LSC funds.  The information in the report includes total number of cases
worked on, types of legal issues, number of open and closed cases, and the
reasons cases were closed.  The report also includes information on Private
Attorney Involvement cases.  The Case Service Reporting Handbook and Grant
Activity Report instructions provide reporting criteria for cases.  Reported cases
must be for eligible clients and within the recipients priorities.  Eligibility is based
on income and citizenship determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses grantee case statistical information to support the Corporations
annual budget request and as a performance measure in the performance plan
submitted in response to the Government Performance and Results Act.  The
compilation of program-wide data on cases is an integral part of the management
oversight process and also allows LSC management to keep its Board of Directors
and the Congress informed of significant program activities and performance.  In
response to the annual reporting requirement, the grantee submitted the following
information to LSC:
Type of Legal ProblemClosedOpen
Consumer/Finance1,277136
Education277
Employment10827
Family7,122940
Juvenile517
Health200177
Housing4,248516
Income Maintenance378340
Individual Rights102108
Miscellaneous1,417247
TOTALS14,9302,505
Examination of Reported Cases
The grantee should have reported 9,452 closed cases and 2,111 open cases
in its 1998 Grant Activity Report.  The following chart shows the number of
overstated cases by error type.
REASON FOR OVERSTATEMENTCLOSED
Client Not Identified2,222
Duplicate Cases1,455
No Legal Services Provided1,013
Untimely Closing788
TOTAL CLOSED5,478
OPEN
Untimely Closing209
Duplicate Cases185
TOTAL OPEN394
CLOSED CASES
Clients Not Identified
The grantee did not determine the identity of the clients for 2,222 cases.
That is, the clients names were not obtained and recorded in the case
management system or the case file.  The grantee did not have controls in place to
ensure that the cases did not include multiple calls from the same individual
requesting assistance for the same problem.  The grantee requested guidance from
LSC as to whether cases may be recorded in the Grant Activity Report in instances
when the client would not provide a name.  In a May 27, 1999 letter, LSC
management informed the grantee that a client name is essential if an activity is to
be counted as a case and that services provided to unidentified clients should not
be reported as cases.
Duplicate Cases
We determined that 1,455 cases were duplicates, i. e., these cases were
reported to LSC more than once.  There were two causes for the duplicates.  First,
clients made multiple requests for assistance that were reported to LSC as separate
cases even though the same legal problem was involved.  Second, the grantee
frequently closed and reported cases when they were referred to a private
attorney.  These same cases were opened, closed and reported again when the
private attorney completed work on them.  The Case Service Report Handbook
states that cases referred to private attorneys should be closed after the private
attorney completes all legal services.  Grantee management has implemented
procedures that preclude the issuance of a second case number when a client is
referred to a private attorney.  These procedures should preclude the routine double
counting of private attorney cases.
Legal Services Not Provided
The Grant Activity Report included an estimated 1,013 cases for which no
legal services were provided.  Review of the documentation in the 85 case files
sampled found that 8 cases did not involve the provision of legal services.  The
attorneys or paralegals responsible for these eight cases confirmed that legal
services were not provided.
Untimely Closure of Cases
An estimated 788 cases were reported as closed in 1998 even though legal
activity on the cases had ceased before 1998.  We reviewed 85 closed cases and
determined that 6 should have been closed in years prior to 1998.  We discussed
these cases with the responsible case handlers and they confirmed that the six
cases should have been closed in 1997 or earlier years.
OPEN CASES
Untimely Closure of Cases
An estimated 209 cases reported open at the end of 1998 should have been
closed because legal activity had ceased prior to 1998.  We reviewed 85 open
cases and determined that 8 should have been closed.  The attorney or paralegal
responsible for each case confirmed that all eight should have been closed in 1997
or earlier years.
Duplicate Cases
The audit found that 185 duplicate open cases were reported.  Clients made
multiple requests for assistance for the same legal problem.  Each request was
treated as a separate case and reported to LSC even though the same legal
problem was involved.
ADDITIONAL CASE MANAGEMENT ISSUES
Eligibility Determinations
Citizenship eligibility was not documented for 73 of the 170 sample cases.
For most of the 73 cases, the grantees staff provided assistance over the
telephone and closed the cases as  "Counsel and Advise" or "Brief Services."  The
grantees staff usually did not document citizenship eligibility for clients served via
the telephone who did not meet personally with a casehandler.  The intake form
used in 1998 did not include a question on the clients citizenship status.  The
intake form was revised in January 1999 and now requires the intake staff to
inquire as to whether the potential client is a citizen or eligible alien.
The grantees staff frequently did not document that clients income met
eligibility requirements.  Case files for 22 of 170 sample cases did not include
income eligibility determinations.
CONCLUSIONS
The grantee needs to improve the accuracy of the case statistics reported in
the Grant Activity Report.  Its 1998 report overstated both closed and open cases.
In addition, there were some cases for which the clients eligibility was not
documented.  Grantee management needs to improve supervisory review
procedures to ensure cases are properly classified as open or closed.  The grantee
should also review the data supporting the Grant Activity Report to detect errors,
such as duplicate cases, and correct them before the report is submitted to LSC.
RECOMMENDATIONS
The OIG recommends that grantee management:
Discontinue the practice of reporting cases when clients identities are not determined.
Implement procedures to periodically generate a "potential duplicate" report from the case management system and delete all cases that are duplicates.
Formally instruct staff that instances in which legal services were not provided to the client should not be reported to LSC as cases.
Implement procedures requiring supervisors to periodically review a sample of closed cases and determine if legal services were provided to the client.
Formally instruct staff that cases should be closed in the year legal activity ceased.
Implement procedures to periodically review a sample of closed cases and determine if cases are being closed in a timely manner.
Implement procedures to periodically review a sample of open cases and determine if cases are being properly classified as active.
Implement procedures to periodically review a sample of open and closed cases and verify that eligibility determinations were made regarding the clients citizenship and income status.
Submit to LSC a revised 1998 Grant Activity Report that accurately reports the number of cases closed during the year and the number open at year-end.
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
Summary of Grantees Comments
The grantee stated that its main disagreement with the audit is that the OIG
may not have used the appropriate criteria to determine cases that should not have
been reported.  The grantee asserted that the OIG based its findings on the criteria
established in the CSR Handbook issued in November 1998.  This handbook did
not take effect until January 1999.  The grantee stated that the OIG should have
used the CSR Handbook issued in 1993 for establishing criteria.
The grantees comments are in Appendix II.
OIGs Decision
Auditors used the 1993 CSR Handbook for criteria in evaluating cases.  Two
sections of the 1999 edition of the CSR Handbook were applicable to 1998 data;
Timely Closing of Cases and Management Review of Cases Service Reports.  These
sections were used where applicable.  Auditors also applied these criteria:
(1) report cases once; (2) document the clients name; and, (3) document the
clients income and citizenship eligibility.
The grantees comments did not provide any basis for modifying the audit
report.  No evidence was provided to support the grantees assertion that the OIGs
findings were contrary to guidelines in effect for 1998 reporting.
GRANTEES SPECIFIC COMMENTS AND OIG DECISIONS
Grantee Comments: Double Counting
The grantees comments on double counting addressed multiple requests for
assistance and Private Attorney Involvement cases.  The grantee said that it had
been following the 1993 CSR Handbook Section 1.2, which states "A client may
generate one or more legal cases from a single intake, or by returning for additional
services at a different time."  Consequently, cases were closed because a
determination had been made that all requested or possible activity had been
completed.  A new case was opened if the client contacted the grantee again.  The
grantees case management system did not allow the grantee to determine whether
the client returned with a new problem or the same problem.
For cases referred to private attorneys, the grantees paralegals and/or
attorneys determined the factual and legal merits of the cases, and then transferred
them to private attorneys.  Prior to the case transfer, the grantees staff also
collected information and normally gave the client some advice or direction.  The
grantee determined that these cases should be closed because its staff performed
work for the client.  A new case was then opened for the private attorneys work.
According to the grantee, the 1993 CSR Handbook gave no guidance on how
grantees should treat such situations.
OIG Decision
The grantees response indicates that the OIG correctly determined that the
Grant Activity Report included duplicate cases.  The grantees explanations show
that multiple requests for assistance and Private Attorney Involvement cases
resulted in the same case being reported more than once.  The grantees comments
did not dispute that the cases were incorrectly reported.  The comments attributed
the incorrect reporting of multiple requests for assistance to unclear LSC guidance.
The guidance could have been better but logic dictates that a case should be
reported only once.
The OIG auditors identified 1,455 cases that appeared to be duplicates.  The
cases involved both multiple requests for assistance from the same client with the
same legal problem and cases referred to private attorneys.  The grantee reviewed
14 cases and determined that all had been incorrectly reported more then once.
The review of these 14 cases required extensive time and grantee management
decided that it was not cost beneficial to review additional cases.  Based on the
review of 14 cases, grantee management concluded that the remaining cases
identified as potential duplicates had also been reported more than once in the
Grant Activity Report.  The OIG agreed with grantee management and the cases
were included in the audit report.
The 1993 CSR Handbook provides clear guidance on reporting Private
Attorney Involvement cases.  The Handbook states that a case should not be
closed upon referral to a private attorney.  However, the grantee closed cases
when they were referred to private attorneys.  This resulted in the same cases
being reported more than once.
Grantee Comments: Failure to Obtain Name, Income, Assets, and Citizenship Status in Some Instances
The grantees comments stated that many people who telephone for
assistance are afraid to give out identifying and other personal information.
According to the grantee, the clients often insist that they have an insurmountable
problem and are immediately provided advice before eligibility information is
requested.  After receiving the advice, the clients frequently refuse to provide
requested eligibility information.
The grantee asserted that prior to the issuance of the 1999 CSR Handbook
there was no requirement to document asset eligibility.  Similarly, before LSCs
May 14, 1999 "Self Inspection Procedure Memorandum" was issued, there was no
requirement for recipients to request and indicate citizenship status for telephone
cases.  Consequently, if no documentation was in the file, it could be assumed that
the client was within asset guidelines and met the citizenship status requirement.
The grantees comments asserted that the services it provides by telephone
are the same as those provided by telephone hotlines.  The grantee stated that it
was logical that just as a hotline could report cases without obtaining names and
determining eligibility, the grantee could report cases resulting from its telephone
intake system.
OIG Decision
The grantees comments indicated that client names were not obtained and
citizen/alien eligibility determinations were not made as auditors reported.
The grantee provided comments on the documentation of assets, but the
draft did not contain any findings related to asset documentation.
LSC regulations do not require clients who only receive brief services over
the telephone to provide attestations of citizenship or documentation of alien
eligibility.  However, this does not mean that grantees are freed from the
requirement to serve only eligible clients.  Eligibility must be established for all
clients. LSC has stated that grantees must ask the applicants whether they are
citizens or legal aliens and document the answers.
The grantee stated that grantees with telephone hotline systems reported
cases without obtaining names and determining eligibility and that it could do like
wise.  LSC regulations do not exempt hotlines from documenting client names and
determining eligibility.
Grantee Comments On Recommendations
The grantee submitted documentation showing that recommendations 1
through 8 had been implemented.  The grantees comments stated that
recommendation number 9: "Submit to LSC a revised 1998 Grant Activity Report
that accurately reports the number of cases closed during the year and the number
open at year-end" would be implemented.
OIG Decision
Recommendation 9 is unresolved.  The grantee should submit a revised 1998
Grant Activity Report that reflects a reduction of 5,478 closed cases and 394 open
cases.  The submission of the revised report should be coordinated with LSC
management.
Please provide a corrective action plan for implementation of
Recommendation 9.  The corrective action plan should include a description of the
action taken to implement the recommendation and the date corrective action will
be completed.
APPENDIX I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
1.Closed cases were overstated (page 6)Recommendations #1-6, and 9
2.Open cases were overstated (page 7)Recommendations #2, 5, 7, and 9
3.Eligibility determinations not documented (page 7)Recommendation #8
Home | Reports | Top |
Table of Contents
Appendix II -- Legal Services of Eastern Missouri, Inc. Comments on Draft Report